                                                        NA TIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: 111030006                                                                     Page 1 of 1



          We initiated this case to review the response to a computer incident. I We interviewed NSF staff
          and reviewed relevant documents. Based on the information obtained, we made two
          recommendations to NSF regarding improving future responses to computer incidents.

                    Accordingly, this case is closed.




NSF OIG Form 2 (11102)
